Supreme Court, U.S.
FILED

20"7763
No.21-

3Jn W1)z
Supreme Court Cf
®ntteb i§>tateg
BRIAN DAVID HILL,
Petitioner;
v.
COMMONWEALTH OF VIRGINIA,
Respondent,
On Petition for a Writ of Certiorari to
the Supreme Court of Virginia
PETITION FOR A WRIT OF
CERTIORARI

II

Brian David Hill
Pro Se
Ally of QANON
i m | M | Former USWGO Alternative News

■ S Hm 8 l1! 1 111 £11
SI U\ § U| ]|1
^0 m mm

■■

310 F0REST STREET, APARTMENT 2

MARTINSVILLE, VIRGINIA 24112
Tel.; (276) 790-3505
E-Mail: No Email

IXS.W.G.O.
**
*

X

Friend ofjustice

JusticeForUSWGO.wordpress.com
JusticeForUSWGO.NL

APR 0 2 2021
OFFICE OF THE CLERK

I.

Questions Presented

Where the Virginia Supreme Court didn’t think
that the Petition for Writ of Habeas Corpus should
apply to the case of Brian David Hill being convicted
of Indecent Exposure under Virginia Code § 18.2-387
because he was not under State Custody even though
he asserted “Actual Innocence” as one of the grounds
for his Petition which could constitute cruel and
unusual

punishment

inflicted

and

deprived

Petitioner of Due Process of Law?
Where the Virginia Supreme Court had failed
to recognize that Petitioner was in fact serving an
additional sentence of 9 months of imprisonment and
additional years of Federal Supervised Release as a
repercussion or result of his wrongful conviction of
Indecent Exposure under Virginia Code § 18.2-387
but only kept its focus on whether he was serving a
State Sentence for a wrongful conviction that he was
challenging on at least one ground of “Actual
Innocence” that is not supposed to be procedurally
ii

barred according to past Supreme Court decisions on
Habeas Corpus decisions on Federal and State cases?
Where the Virginia Supreme Court dismissed
the Petition for Appeal over appealing the Circuit
Court of Martinsville’s denial of the Petition for the
Writ of Habeas Corpus even though Petitioner had a
strong showing that he may be factually innocent of
his charge of Indecent Exposure under Virginia Code
§ 18.2-387 and that had the Virginia Supreme Court
provided such relief by granting the Petition for
Appeal then it could have led to an evidentiary
hearing in the Circuit Court which may have led to
an actual innocence verdict?
Where case law precedent in this very Court
contradicts the Supreme Court of Virginia’s opinion
and decision on December 21, 2020, that the Supreme
Court’s job is to keep in uniformity with other top
Appeals Courts decisions and State Supreme Court
decisions under the Supremacy Clause of the U.S.
Constitution?
Where the “due process of law” clause of the
U.S. Constitution, Amendment XIV, regarding the
iii

State’s

obligation to follow the United

States

Constitution including the Due Process Clause is
being deprived by the Commonwealth of Virginia and
by the Circuit Court of Martinsville and where
judgments/orders that may not even have valid
jurisdiction to have ever been entered is being
allowed and actual innocence is completely being
overlooked which deprives Petitioner of being allowed
to prove Factual Innocence to his State charge and
Conviction which ultimately caused a revocation of
Petitioner’s Supervised Release on September 12,
2019, in the U.S. District Court for the Middle
District of North Carolina?
Where the Virginia Supreme Court had failed
to recognize the U.S. Constitution’s miscarriage of
justice exception for habeas corpus procedural defects
and that actual innocence claim to a wrongful
conviction in a state court should be an exception to a
state procedural or jurisdictional defect?

iv

II.

Table of Contents

I
I. Questions Presented...............................................
II. Table of Contents....................................................
III. Table of Authorities.............................................
IV. Petition for Writ Of Certiorari.......................
V. Opinions Below........................................................
VI. Jurisdiction..............................................................
VII. Constitutional Provisions Involved............
VIII. Statement of the Case.....................................
1. The Writ of Habeas Corpus by Mr. Hill........
2. The Supreme Court of Virginia receives
the Petition for Appeal, brief or letter in
opposition, and then a reply to the opposition
filing.....................................................................................

IX

v
vi

1
3

5
6
7

13

15

IX. REASONS FOR GRANTING THE WRIT...18
A. To avoid erroneous deprivations of the
right to due process by the Circuit Court’s
duty under Amendment XIV of the U.S.
Constitution to not deprive a person of liberty,
property, and life without due process of law.... 18
B. To keep in uniformity with the past
opinions of this Supreme Court and making
sure that the Supreme Court of Virginia’s
Habeas Corpus decisions keep in uniformity
with the “Actual Innocence” and miscarriage
of justice exception to prevent cruel and
unusual punishment inflicted upon an
innocent man/woman in violation of the
Amendments VIII and XIV of the U.S.
Constitution...................................................................... 20
C. To avoid a miscarriage of justice and cruel
and unusual punishment inflicted by the
Circuit Court of Martinsville by convicting
an innocent man and giving him no
opportunity to demonstrate factual
innocence and blocking him from being
allowed relief upon showing a colorable claim
of actual innocence........................................................ 27
V

X. CONCLUSION

30

6

III.

Table of Authorities
Cases

Sawyer v. Whitley, 505 IT S- 333 (19921....7
Kuhlmann v. Wilson, 477 II.fi. 436......7
Murray v. CarrierT 477 U.S. 478, 479-80 (198fil.-..7, 16-17, 18, 22
Ksnatrulla v. Superintendent, 290 Va. 374, 880-81 (2015)
5
TCuhlmann

v.

Wilson

477

IT.S.

486.

488

(19881
7

In re Davis. 180 S. Ct. 1. 2 (2009)
Bousley

v

United

States

8, 17, 18, 22
523

US.

(19981

614

622-28
16, 18, 22

Sawyer v. Whitley, 505 IT S. 333 (1992).......................... 16, 18, 22
Kuhlmann v. Wilson. 477 TT.S. 436. 438 (1986!

22

Trop v. Dulles. 356 U.S. 86.100 (19581 (plurality opinion)

19

Gregg v. GeorgiaT 428 U.S. 153, 169-170 (1976) (plurality
opinion!

19

Herrera v. Collins. 506 IT S. 390. 427 (1993!

19

Romiok v. Commonwealth, No. 1580-12-4, 201.3 WL 6094240
at *2 (Va. Ct. App. Nov. 19, 2013Xnnpnhlishedl

24

Price v. Commonwealth. 201 S.E.2d 798. 800 (Va. 1974!

24

Copeland v. Gomroon wealth, 525 S.E.2d 9, 10 (Va. App
2000!

23
vii

Morales v. Commonwealth

525 S.E.2d 23, 24 (Va. App

20001

23

Moses v. Commonwealth. 611 S.E.2d 607. 608 (Va. App. 20051(en
band

23

Wilson

v

Kuhlmann

477.... U.S

436

(19861
Herrera

438
17, 18

v.

506

Collins

IT.S.

390.

432

n.2

(19931
18

Robinson

v.

370

California

IT.S.

660.

667

(19621
18

Rules
5-6

Rule 13(1) of the U.S. Supreme Court
Rule 13, paragraph 1 of the Supreme Court

2

Statutes
28 U.S. Code § 1257

5

28 U.S.C. § 2101

6

Virginia Code § 8.01-654

5

Virginia Code § 18.2-387

1, 10, 11, 21, 23, 27, 28

Virginia Code Article 3. Habeas Corpus, Title 8.01.
Civil Remedies and Procedure.......................................

1-2

V.A. Code § 8.01-677.1

14

Va. Code § 18.2-372

25
viii

29

42 U.S. Code § 407

Constitutional Provisions
United States Constitution, Amendment VIII

6

United States Constitution, Amendment XIV

6

ix

IV.

Petition for Writ Of Certiorari

Brian David Hill ("Petitioner”, “Appellant”, “Mr.
Hill”), an criminal defendant in a State Charge
(September 21, 2018), Conviction (December
21, 2018) in the General District Court, and
reaffirmed Conviction (November 18, 2019)
in the Circuit Court of Indecent Exposure
under Virginia Code § 18.2-387 in the Circuit
Court of Martinsville (“Circuit Court”) while
currently serving a sentence of supervised release by
and through the United States Probation Office for
the Western District of Virginia by order of the
Middle District of North Carolina,

respectfully

petitions this court for a writ of certiorari to review
the judgment of the Supreme Court of Virginia,
denying and refusing the Petition for Appeal of
requesting that the Supreme Court of Virginia grant
full appellate review over a judge of the Circuit Court
of Martinsville denying and dismissing a Virginia
Petition for Writ of Habeas Corpus under the
statutory clauses in Virginia Code Article 3. Habeas
1

Corpus, Title 8.01. Civil Remedies and Procedure in
the very petition asking for relief, and the Circuit
Court as well as the Supreme Court of Virginia had
overlooked the ground of Actual Innocence and had
overlooked the authoritative case law of this very
Court which had ruled that, aetnal irmoronnft ran
nvprnmnp any procedural defanlt/defect but the
Habeas Corpus petition was before the Circuit Court.
Pursuant to Rule 13, paragraph 1 of the Supreme
Court rules, The Supreme Court of Virginia (“SCV”)
under case no. #200267, is the highest State Court of
last resort of making a final decision over the
originating case

under Circuit Court

case no.

CL19000331-00 where the Petition for Writ of Habeas
Corpus, was originally filed and the Supreme Court’s
final decision is very case that is being appealed to the
United States Supreme Court to undo a miscarriage
of justice, protect the Actual Innocence rights of
Petitioner under the United States Constitution
requesting relief. Petition for Appeal was filed on
February 19, 2020. Reply to Brief in Opposition was
filed on March 30, 2020. SCV conducted an oral
2

argument in front of a panel of Justices on December
1, 2020. The SCV had refused the Petition for Appeal
on December 21, 2020, with an opinion that Petitioner
was not in State Custody and was procedurally barred
from filing Writ of Habeas Corpus and therefore there
had no jurisdiction for an appeal of that decision.
Petitioner

felt

that

the

State’s/Commonwealth’s

decision

Supreme

of

Court

the
had

conflicted with the U.S. Supreme Court on Habeas
Corpus decisions regarding actual innocence and filed
a “Petition for Rehearing” on December 30, 2020.
Petition was considered and was refused on February
5, 2021. So, the petition for rehearing was denied on
February 5, 2021. Under this Court’s rules of 90-days
of the final decision of the Court of last resort,
Petitioner believes this was timely filed since the
petition for rehearing denial was the last final
decision of the court of last resort.
IV.

Opinions Below
The decision by the SCV denying/refusing Mr.
Hill’s petition for appeal asking for review over the
3

Circuit Court denying and dismissing Mr. Hill’s
petition for Writ of Habeas Corpus based on at least
one ground asserting “actual innocence” is reported
in an unpublished opinion as Brian David Hill v
Commonwealth of Virginia, SCV record case No.
200267 (December 21, 2020) by the panel of three
Justices after hearing oral argument on December 1,
2020. Mr. Hill filed a petition for rehearing dated
December 20, 2020. The SCV refused Mr. Hill’s
petition for rehearing on February 5, 2021. That order
was unpublished and stated that “On consideration of
the petition of the appellant to set aside the judgment
rendered herein on December 21, 2020 and grant a
rehearing thereof, the prayer of the said petition is
denied.”
The order on December 21, 2020 had stated that
“Upon review of the record in this case and
consideration of the argument submitted in support of
the granting of an appeal, the Court refuses the
petition for appeal. Brian David Hill challenges the
judgment of the Circuit Court of the City of
Martinsville dismissing his petition for a writ of
4

habeas corpus. On November 18, 2019, Hill filed a
petition for a writ of habeas corpus in the circuit court
challenging his misdemeanor conviction for indecent
exposure. In his petition, Hill indicated that on
November 15, 2019, he received a sentence of 30 days
in jail and that, at the time of filing, he was not in
custody or under any type of probation or suspended
sentence from his indecent exposure conviction.
Because Hill had fully served his sentence at the time
when he filed his petition, the circuit court lacked
jurisdiction to award habeas relief under Code § 8.01654. See Escamilla v. Superintendent, 290 Va. 374,
380-81 (2015) (holding that detention is jurisdictional
in habeas corpus, and jurisdiction must exist at the
time the petition is filed). Accordingly, the Court is of
the opinion there is no reversible error in the
judgment below.”
V.

Jurisdiction
Mr. Hill’s petition for rehearing to the SCV was
denied on February 5, 2021. Mr. Hill invokes this
Court's jurisdiction under 28 U.S. Code § 1257 and Rule
5

13(1), having timely filed this petition for a writ of
certiorari within ninety days after entry of the final
judgment of the Supreme Court of Virginia’s under 28
U.S.C. § 2101. The SCV is the court of last resort in the
State/Commonwealth of Virginia. The petition for
Certiorari

affects

the

Constitutional

right

and

Constitutional issues of the U.S. Constitution.
VI.

Constitutional Provisions Involved
United States Constitution, Amendment XIV:
“All persons born or naturalized in the United
States and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law
which shall abridge the privileges or immunities of
citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.”

United States Constitution, Amendment VIII:
“Excessive bail shall not be required, nor
excessive fines imposed, nor cruel and unusual
punishments inflicted.”

6

VIII. Statement of the Case
Decades ago, this Court held in Sawyer v
Whitley, 505 IT S. 333 (1992i that “Generally, a
habeas petitioner must show cause and prejudice
before a court will reach the merits of a successive,
abusive, or defaulted claim. Even if he cannot meet
this standard, a court may hoar the merits of such
claims if failure t.n hear them would result in a
miscarriage ofjustice. See, e.g., Kuhlmann v. Wilson,
477 US. 436. 'The miscarriage of justice exception
applies where a petitioner is "actually innocent” ofthe
crime of which he was convicted or the penalty which
was imposed.”. Murray v. Carrier, 477 U.S. 478, 47980 (1986) (“However, in an extraordinary case,
where

a

constitutional

violation

has

probably

resulted in the conviction of one who is actually
innocent, a federal habeas court may grant the writ
even in the absence of a showing of cause for the
procedural default.”).
Kuhlmann v. Wilson, 477 U.S. 436, 438 (1986)
(“Balancing the State's interests in finality of
7

convictions and the prisoner’s interest in access to a
forum compels the conclusion that the "ends of
justice" are served by successive review only where
the petitioner supplements his constitutional claim
with a colorable showing of factual innocence. The
prisoner must make his evidentiary showing even
though — as argued in this case — the evidence of
guilt may have been unlawfully admitted.”)
In re Davis, 130 S. Ct. 1, 2 (2009) (“Justice
SCALIA would pretermit all of these unresolved
legal questions on the theory that we must treat
even the most robust showing of actual innocence
identically on habeas review to an accusation of
minor

procedural

error.

Without

briefing

or

argument, he concludes that Congress chose to
foreclose relief and that the Constitution permits
this.”)
Different

sets

of case

rulings

from

this

Supreme Court all make different legal opinions
over the same issues regarding the Constitution of
the United States of America and Habeas Corpus
relief. That actual innocence claims, especially a
8

colorable

showing

of actual

innocence

should

overcome any minor procedural bar or jurisdictional
bar/defect. Actual innocence is legal innocence
where no law was broken and no crime was
committed under the law as charged.
There were a lot of authoritative decisions by
the same U.S. Supreme Court ruling time and time
again that actual innocence claim in a Habeas
Corpus

petition

is

such

an

exception

to

a

procedurally defaulted petition or claim through
writ of habeas corpus.

The petition filed by

Petitioner was timely filed, around the same time
after the criminal conviction was entered by the
Circuit Court of Martinsville. The only reason it was
procedurally barred was because the SCV had
decided that Petitioner was not in State Custody
and

was

not

on

State

Probation

or

State

Imprisonment at the time such petition was filed
and therefore the SCV invoked that there was no
jurisdiction to entertain any Writs of Habeas
Corpus filed by Petitioner or entertain such appeals.
However, Petitioner had asserted in his Writ of
9

Habeas Corpus that at the time the petition was
filed, Petitioner was ordered to spend nine months
of Federal Imprisonment as a result of his State
Charge of Indecent Exposure under Virginia Code §
18.2-387 on September 21, 2018, and had used his
conviction in General District Court of Martinsville
on December 21, 2018, as reason to revoke his
Federal Supervised Release in the Middle District of
North Carolina in the U.S. District Court. See
Document #200, Oct 7, 2019, "JUDGMENT ON
REVOCATION
RELEASE.",

OF
Case

PROBATION/SUPERVISED
no.

l:13-cr-435-l.

That

imprisonment order was brought up in a photocopy
of that judgment in the Petition for Writ of Habeas
Corpus timely filed in the Circuit Court of the City
of Martinsville. Also, the Supervised Release was
extended

(“IT IS FURTHER

ORDERED

that

supervised, release of nine (9) years is re-imposed
under the same terms and conditions as previously
imposed.”, See Document #200, Case no. l:13-cr435-1) and thus Petitioner had directly been given
an imprisonment directly caused by the State
10

Charge and criminal conviction and Petitioner was
mandated to report to Federal Prison on December
6, 2019, at the time that the Writ of Habeas Corpus
was filed directly caused by the State Charge and
Conviction in General District Court which was
appealed to trial de novo in the Circuit Court.
This case presents very important questions of
exceptional circumstances as to whether the Supreme Court
of Virginia (“SCV”) should have denied or refused the Petition
for Appeal of Petitioner seeking Judicial review of the SCV
over Petitioner’s timely filed Writ of Habeas Corpus (“WHC”)
being considered but denied and dismissed on November 20,
2019, not giving the Commonwealth Attorney Glen Andrew
Hall, Esq. an opportunity to file their response to the actual
innocence claims and other claims made by Petitioner in his
WHC petition filed on November 18,2019, and yet the Circuit
Court had quickly decided within a few days to dismiss the
WHC petition while overlooking the case law authorities from
this Supreme Court as well as the other case law and evidence
cited regarding Petitioner’s legal innocence to his charge and
conviction of Indecent Exposure under Virginia Code § 18.2387. Should Courts be allowed to quickly dismiss the
11

Petition for the Writ of Habeas Corpus without any
evidentiary hearing and without reviewing over any
evidence or claims when such quick and rash decision
would create a miscarriage of justice regarding an
innocent man/woman when it asks for appropriate
relief to prevent a Court from wrongfully convicting
an innocent man who had been given additional
imprisonment and additional Federal Supervised
Release sentence as a result of being wrongfully
convicted in State Court when Petitioner had
asserted that he was actually innocent of his charge
and conviction?

12

1. The Writ of Habeas Corpus by Mr. Hill
On November 18, 2019, in case no. CL19000331-00
in the Circuit Court of the City of Martinsville in Virginia,
Brian Hill filed a 201 page “PETITION FOR WRIT OF
HABEAS CORPUS” filed by Brian David Hill. No response
was entered as of yet by the Commonwealth’s Attorney
Glen Andrew Hall, Esquire. That petition had directly cited
this Court’s ruling under Bousley v. United States, 523 US.
614, 622-23 (1998). Even asserted in such petition the
miscarriage of justice argument that “It is a cruel and
unusual punishment to inflict any penalties against an
innocent man or woman.” That right there invoked the
Eighth Amendment of the U.S. Constitution in the petition
for WHC in the Circuit Court.
On November 20, 2019, the Judicial Officer,
Hon. Giles Carter Greer of the Circuit Court had filed
a quick judgment without an opinion dismissing the
Writ of Habeas Corpus petition without explanation
as to why it was dismissed and without an evidentiary
hearing. It was dismissed very quickly and would not
have given a Court a reasonable amount of time to
determine if a petition did have jurisdiction, merit,
13

and whether the actual innocence claim and newly
discovered evidence could overcome any procedural
defects and jurisdictional defects which may result.
The order had said “UPON CONSIDERATION of the
petitioner’s Petition for Writ of Habeas Corpus, it is
ORDERED that said petition be, and the same is
hereby, DISMISSED.”.
On November 20, 2019, Brian Hill filed a timely
Notice of Appeal to appeal the decision to dismiss
Petitioner’s petition for Writ of Habeas Corpus. The
“NOTICE OF APPEAL” was transmitted to the Court of
Appeals of Virginia. Case was opened up under Record No.
0079-20-3.
On February 14, 2020, the Court of Appeals of
Virginia had entered an order that they didn’t have
the jurisdiction to hear Writ of Habeas Corpus appeal
and had transferred the Notice of Appeal and Mr.
Hill’s Petition for Appeal to the SCV. It said “It appears
that this Court does not have jurisdiction over this case.
Accordingly, the case hereby is transferred to the Supreme
Court of Virginia pursuant to Code § 8.01-677.1.”

14

The Supreme Court of Virginia receives the
Petition for Appeal, brief or letter in opposition, and
then a reply to the opposition filing
2.

On February 19, 2020, the Supreme Court of
Virginia had received the Petition for Appeal, and opened
up case no. 200267. Record was received on February 14,
2020.

The “Reply to Brief in Opposition” was filed on
March 30,2020. The opposition letter was that the Attorney
General of Virginia had asserted that Petitioner cannot
challenge his conviction on actual innocence because he was
no longer in State Custody. The reply was meant to assert
that actual innocence overcomes such procedural defects
and again asserted the U.S. Supreme Court’s case law on
“actual Innocence” and the miscarriage of justice exception
under the U.S. Constitution to defective Habeas petitions.
On December 1, 2020, a panel of Justices in the
Supreme Court of Virginia held an oral argument of
Petitioner to present his oral arguments about why his
petition should be granted by the panel of three Justices of
SCV.

15

On December 21, 2020, the Supreme Court of
Virginia had refused the Petition for Appeal.
On December 30,2020, Brian Hill filed a Petition for
Rehearing again asserting that it’s decision and opinion
contradicts the authoritative case laws of the TJ.S. Supreme
Court concerning actual innocence and writs of habeas
corpus and the eighth Amendment’s prohibition on cruel
and unusual punishments inflicted where any punishment
of an innocent man or woman is cruel and unusual
punishment and that Habeas Corpus should not be
procedurally closed on somebody making a colorable
showing of factual innocence/actual innocence.
On February 5, 2021, the Supreme Court of Virginia
had refused the petition for rehearing. That creates the
final decision and thus Petitioner is respectfully requesting
that the U.S. Supreme Court grants Certiorari and
conducts a review of that erroneous decision. That decision
of the highest appellate Court of Virginia, a State Supreme
Court, conflicts with the case law decisions of this Court.
Again, see this Court’s decisions under Bousley v.
United States, 523 US. 614, 622-23 (1998), Sawyer v.
Whitley, 505 U.S. 333 (1992), Murray v. Carrier,' 477 U.S.
16

478, 479-80 (1986), Kuhlmann v. Wilson, 477 U.S. 436, 438
(1986), and In re Davis, 130 S. Ct. 1, 2 (2009). This Court
had placed a very large emphasis on the “actual innocence”
claim and “miscarriage of justice” exception to defaulted
Habeas Corpus petitions under the Eighth Amendment's
prohibition on cruel and unusual punishments inflicted
and/or under the Due Process Clause of the Fourteenth
Amendment. The Amendment XIV of the Constitution
requires that States also have Due Process of Law when a
criminal defendant’s liberty and/or property is being taken
away as a result of an adverse decision in a criminal charge
and wrongful conviction, especially an innocent person.
IIIIII

17

IX.

REASONS FOR GRANTING THE WRIT

A. To avoid erroneous deprivations of the right to
due process by the Circuit Court’s duty under
Amendment XIV of the U.S. Constitution to not
deprive a person of liberty, property, and life
without due process of law.

In Rmislfty V- United States, 523 ITS. 614T 62223 11996), Sawyer v. Whitley, 505 IT S. 333 (1992Y
Murray v. Carrier, 477 IT S 47ft, 479-30 MflflfiY
Kuhlmann v. Wilson. 477 IT S. 436. 433 (19361 anH Tr>
rpi Davis, 130 S. Ct. 1, 2 (2009), this Court adopted
the usage of the “actual innocence” and “miscarriage
of justice” exceptions to any procedurally defaulted or
defective Petitions for Writ of Habeas Corpus.
Herrera v. Collins, 506 U.S. 390, 432 n.2 (1993)
(“It also may violate the Eighth Amendment to
imprison someone who is actually innocent. See
Robinson v. California, 370 U.S. 660, 667 (1962)
("Even one day in prison would be a cruel and unusual
punishment for the crime of having a common cold").”)
This Court had reasoned in that decision with the
argument “It also may violate the Eighth Amendment
to imprison someone who is actually innocent.”
18

Punishing somebody who is innocent of a crime is
cruel and unusual punishment and is contrary to what
a Court of Law should be doing, only punishing the
guilty who have been found guilty of violating a law.
The Eighth Amendment prohibits cruel and unusual
punishments. The amendment was originally drafted to
prohibit torture and other barbaric methods of punishment.
Gregg v. Georgia, 428 U.S. 153, 169-170 (1976) (plurality
opinion). However, the Eighth Amendment has been
“interpreted in a flexible and dynamic manner” to reflect
evolving standards of decency. Id. at 171. The penalty “must
accord with ‘the dignity of man,’ which is the basic concept
underlying the Eighth Amendment.” Id.at 173, quoting
Trop v. Dulles, 356 U.S. 86,100 (1958) (plurality opinion).
There can hardly be a punishment more violative of the
dignity of man than the execution of an innocent person.
Herrera v. Collins,, 506 U.S. 390, 427 (1993) (“We
granted certiorari on the question whether it violates due
process or constitutes cruel and unusual punishment for a
State to execute a person who, having-been convicted of
murder after a full and fair trial, later alleges that newly
discovered evidence shows him to be "actually innocent."”)
19

B. To keep in uniformity with the past opinions of
this Supreme Court and making sure that the
Supreme Court of Virginia’s Habeas Corpus
decisions keep in uniformity with the “Actual
Innocence” and miscarriage of justice exception
to prevent cruel and unusual punishment
inflicted upon an innocent man/woman in
violation of the Amendments VIII and XIV of
the U.S. Constitution.

This Court has the ability to use its authority to
grant the Petition for Writ of Certiorari to keep the
uniformity of not just this Court’s decisions regarding
usage of the “actual innocence” and “miscarriage of
justice” exception to a procedurally defaulted petition for
writ of habeas corpus to prevent a criminal conviction
from causing a deprivation of Due Process rights and
protections under Amendment XIV and Amendment
VIII’s prohibition on cruel and unusual punishments
inflicted upon an innocent person who had made a
colorable showing of actual innocence to a crime charged
and

wrongfully

convicted,

States/Commonwealths

of

especially
the

Union,

when

all

Federal

Supremacy Clause of the U.S. Constitution, have to
abide by the U.S. Constitution pursuant to the
20

Amendment XTV requiring all States to not deprive a
U.S. citizen of life, liberty, or property without Due
Process of Law, and that a State may not “deny to any
person within its jurisdiction the equal protection of the
laws.” (citation partly omitted and reformatted). The
Commonwealth of Virginia, the Circuit Court of
Martinsville, and the decision of the Supreme Court of
Virginia throwing out Habeas Corpus relief requested on
the

ground

discriminatory,

of

actual

and

innocence

creates

is

criminal

unequal,
conviction

consequences that Virginia claims cannot be challenged
in any way, shape, or form simply because he technically
is not under State Custody as they have claimed while
being made aware that he faced Revocation of his
Federal Sentence of Supervised Release if he is not found
actually innocent of his state charge and Conviction,
which is a miscarriage of justice and deprived an
innocent man of permanent acquittal for his conviction
of the Virginia charge of Indecent Exposure under
Virginia Code § 18.2-387.
This Court made multiple important decisions
regarding the usage of actual innocence, factual
21

innocence, and a colorable showing of innocence, as well
as the miscarriage of justice exception to a procedurally
defaulted Habeas Corpus petition. Again, see Bousley v.
United States, 523 US. 614, 622-23 (1998), Sawyer v. Whitley,
505 U.S. 333 (1992), Murray v. Carrier, 477 U.S. 478, 479-80
(1986), Kuhlmann v. Wilson, 477 U.S. 436, 438 (1986), and In
re Davis, 130 S. Ct. 1, 2 (2009). The decision on December 21
2020, and the refusal of Petition for Rehearing on February 5,
2021, shows a conflict creating a permanent miscarriage of
justice against an innocent man when the original criminal
judgment entered on November 18, 2019, in the Circuit Court
of Martinsville (“Case no. CR19000009-00 (11/18/2019
ORDER)”) had shown that Petitioner never plead guilty to his
charge but had simply withdrawn his appeal but had asked
the Circuit Court to retain allowing him to overturn his
criminal conviction in another way because of ineffective
assistance of trial counsel refusing to file anything showing
the actual innocence of Petitioner. Petitioner never plead
guilty to his charge, that is a fact in his criminal case. The
Supreme Court of Virginia should have picked up on that in
the Record of his Criminal Case for his Writ of Habeas Corpus
challenging that conviction and one such ground asserted was
22

his Actual Innocence aka Legal Innocence. He never violated
Virginia Code § 18.2-387. That SCV should have taken special
notice of the actual innocence claim and should not have
dismissed the appeal.
Petitioner had made a clear demonstration that he
can prove factual innocence and make a colorable
showing

of actual innocence.

He

provided

legal

arguments that in order to be convicted of Indecent
Exposure under Virginia Code § 18.2-387, the Petitioner
must have acted intentionally to conduct such unlawful
behavior. No such evidence of intent exists. Petitioner
had explained about the case laws and what is legally
required to be guilty of violating criminal Code § 18.2387.

“The ‘obscenity’ element of Code § 18.2—387 may
be satisfied when: (1) the accused admits to possessing
such intent, Moses v. Commonwealth, 611 S.E.2d 607,
608 (Va. App. 2005)(en banc); (2) the defendant is visibly
aroused, Morales v. Commonwealth, 525 S.E.2d 23, 24
(Va.

App.

2000);

(3)

the

defendant

engages

in

masturbatory behavior, Copeland v. Commonwealth,
525 S.E.2d 9, 10 (Va. App. 2000); or (4) in other
23

circumstances when the totality of the circumstances
supports an inference that the accused had as his
dominant purpose a prurient interest in sex, Hart, 441
S.E.2d at 707—08. The mere exposure of a naked body is
not obscene. See Price v. Commonwealth, 201 S.E.2d
798, 800 (Va. 1974) (finding that '[a] portrayal of nudity
is not, as a matter of law, a sufficient basis for finding
that [it] is obscene’).” Romick v. Commonwealth, No.
1580-12-4, 2013 WL 6094240, at *2 (Va. Ct. App. Nov.
19, 2013)(unpublished)(intemal citations reformatted).
While the evidence may show that Appellant was
naked in public at night, as stated why he was charged,
nudity, without more, is not obscene under Virginia law.
Rather, “[t]he word 'obscene’ where it appears in this
article shall mean that which, considered as a whole, has
as its dominant, theme nr purpose an appeal to the

prurient interest in sex, that is a shameful or morbid
interest in nudity, sexual conduct, sexual excitement,
excretory

functions

or

products

thereof

or

sadomasochistic abuse, and which goes substantially
beyond customary limits of candor in description or
representation of such matters and which, taken as a
24

whole, does not have serious literary, artistic, political
or scientific value.” Va. Code § 18.2-372 (emphasis
added). While Virginia does not appear to have
established a clean definition of criminal intent, Black’s
Law Dictionary defines it as “[a]n intent to commit an
actus reus without any justification, excuse, or other
defense.”
In summary, in order to show that Appellant
violated Va. Code § 18.2-372 by committing the offense
of

indecent

exposure

under

Virginia

law,

the

Commonwealth was required to prove, among other
things, that Appellant had the intent to display or
expose himself in a way which has, as its dominant
theme or purpose, appeal to the prurient interest in sex,
as further defined above, without any justification,
excuse, or other defense.1 The Commonwealth failed to
do so. Rather, the Commonwealth’s evidence, presented
through its own witnesses, showed Appellant as
someone who was running around naked between

1 For the reasons stated above, the Commonwealth’s burden was to prove every
element of the offense, including the mens rea, beyond a reasonable doubt. However,
even if, arguendo, this Court were to find that the Commonwealth’s burden was only a
preponderance of the evidence, the Commonwealth has still failed to carry its burden.
25

midnight and 3:00 a.m. and taking pictures of himself
because he believed that someone was going to hurt his
family if he did not do so.
The General District Court did not hear, however,
any evidence of Appellant having his dominant theme,
or purpose being an appeal to the prurient interest in
sex. For example, there was no evidence of Appellant
making

any

sexual

remarks,

being

aroused,

masturbating, or enjoying his conduct, sexually or
otherwise. If a person was purposing to expose himself
in public because he or she found it sexually arousing, it
would be logical that he or she would pick a place and
time where he or she would expect to encounter lots of
members of the public. Appellant did not do that.
Rather, he was running around between midnight and
3:00 a.m. and the witnesses to his nudity were few.
Hence, the statements Appellant made to police and his
conduct both indicate that, in the light most favorable to
the Commonwealth, he was naked in public while
having a psychiatric episode, but without the intent
necessary to commit indecent exposure under Virginia
law. Consequently, the General District Court erred, as
26

a matter of law, when it found that Appellant had
violated Virginia Code § 18.2-387 by committing the
Virginia state law offense of indecent exposure as per
Virginia Code § 18.2-387.
Appellant never actually plead guilty when he
filed his “Motion to Withdraw Appeal” and the Judge
marked out any notion of it, no guilty plea at all and any
note of such was stricken from the final conviction.
Petitioner still retained the right to overturn his
criminal conviction on the ground of actual innocence
and any newly discovered evidence. A strong showing of
actual innocence warrants granting of the Writ of
Habeas Corpus in the Circuit Court or an evidentiary
hearing before making a decision on granting or denying
the Petition. The Supreme Court of Virginia should have
clearly taken that into consideration before making such
erroneous decision to refuse the Petition for Appeal and
the Petition for Rehearing.
C. To avoid a miscarriage of justice and cruel and
unusual punishment inflicted by the Circuit
Court of Martinsville by convicting an innocent
man and giving him no opportunity to
demonstrate factual innocence and blocking
him from being allowed relief upon showing a
colorable claim of actual innocence.
27

This Court has the ability to use its authority to
grant the Petition for Writ of Certiorari to review over
an erroneous decision which had caused a permanent
miscarriage of justice against Petitioner Brian David
Hill, permanently convicting him of his charge of
Indecent Exposure under Virginia Code § 18.2-387,
despite never pleading guilty. Petitioner for a fact never
actually plead guilty which led to such a criminal
conviction on November 18, 2019. The Judge even
marked out any such note and allowed Petitioner to
retain that he could later challenge his criminal
conviction by other methods such as a Writ of Actual
Innocence but that form of relief mainly applies to felony
convictions and the charge of Indecent Exposure under
Virginia Code § 18.2-387 is only a misdemeanor but that
misdemeanor had caused severe consequences for his
Federal Supervised Release sentence in the Middle
District of North Carolina. Severe consequences such as
9

months

of imprisonment,

additional

years

of

Supervised Release with the Federal Judge ordering
“supervised, release of nine (9) years is re-imposed under
the same terms and conditions as previously imposed”.
28

Then there is another repercussion caused by such
miscarriage of justice such as having the Petitioner owe
a legal debt to the Circuit Court of Martinsville for in the
thousands of dollars not for restitution but for legal costs
throughout his State criminal case billed by both the
Prosecutor’s legal costs and court appointed lawyer’s
legal costs accrued throughout the entire criminal
prosecution of the State case knowing that his only
source of income is his Supplemental Security Income
disability disbursement under 42 U.S. Code § 407. His
SSI should have been protected from any such demand
to pay legal fees or legal debts to a State Court. So, he is
risking his SSI being garnished or taken by order of the
Circuit Court upon not being acquitted of his wrongful
conviction. That can deprive him of paying rent and
deprive him of life and liberty as he suffers under a
permanent disability or disabilities to even receive SSI.
So, he suffers three or more times even after serving his
State Sentence, so he is being punished over and over
again as a result of his wrongful conviction on November
18, 2019 in the Circuit Court. All of that was included on
Record in the Writ of Habeas Corpus in the Circuit
29

Court. So, the miscarriage of justice and wrongful
repercussions and his actual innocence were all brought
up in his petition. The Supreme Court of Virginia should
have recognized all of this together to protect Petitioner
from cruel and unusual punishment and being deprived
of Due Process of Law as an innocent man. The Supreme
Court of Virginia should have ordered the Circuit Court
to have conducted an evidentiary hearing to determine
if Petitioner can demonstrate a colorable showing of
actual innocence as he had claimed under oath/affidavit
in his Petition for Writ of Habeas Corpus on November
18,

2019,

as

well

as

show

evidence

attachments/Exhibits.

X.

CONCLUSION

For the foregoing reasons, Mr. Hill respectfully
requests that this Court issue a writ of certiorari to
review the judgment of the Supreme Court of Virginia
refusing and dismissing Mr. Hill’s petition for Appeal
on the Circuit Court dismissing Petitioner’s petition
for Writ of Habeas Corpus and the Supreme Court of
Virginia’s refusal of Petition for Rehearing.
II
30

DATED this 2nd day of April, 2021.

Respectfully submitted,

Brian ft Hid
Brian D. Hill
Brian David Hill
Pro Se
Ally ofQANON
Former USWGO Alternative News Reporter
310 FOREST STREET, APARTMENT 2
MARTINSVILLE, VIRGINIA 24112
Tel.: (276) 790-3505
E-Mail: No Email

fcQ ONf, q
*
4:

a

15JS.W.G.O.
JusticeForUSWGO.wordpress.com
JusticeforUSWGO.NL

31

